GENERAL SERVICES ADMINISTRATION
     OFFICE OF INSPECTOR GENERAL



              Review of the
       Southeast Sunbelt Region PBS
     Environment Program Management
       Report Number A050040/P/4/R06004
                March 28, 2006
Date:            March 28, 2006

Reply to
Attn of:         James Duerre
                 Regional Inspector General for Auditing
                 Southeast Sunbelt Region Field Audit Office (JA-4)

Subject:         Review of the Southeast Sunbelt Region PBS Environment Program Management
                 Report Number A050040/P/4/R06004

To:              Ed Fielder
                 Regional Administrator, Southeast Sunbelt Region (4A)


This report presents the results of the Review of the Southeast Sunbelt Region PBS
Environment Program Management conducted by the Office of Inspector General (OIG).

INTRODUCTION

In FY 2005, the General Services Administration (GSA) Office of Inspector General (OIG)
conducted a review of the PBS Environment Program management as a component of the
OIG Fiscal Year 2005 Annual Audit Plan. The objective of that review was to determine
whether PBS implemented effective measures following a FY 2000 program audit, Audit of
PBS’ Environmental Management Program1. Our work was conducted in the Southeast
Sunbelt, Heartland, Greater Southwest, and Pacific Rim regions.

During the course of the review, we found issues specific to the Southeast Sunbelt Region
(Region 4). Those issues are addressed in this separate report.

OBJECTIVES, SCOPE AND METHODOLOGY

This report developed from the national review of the PBS Environment Program
management conducted in FY 20052. In addressing the objectives of that review, we found
issues specific to the Southeast Sunbelt Region (Region 4). The review objective was to
determine whether PBS implemented effective measures following the 2000 program audit;
specifically, the effectiveness of PBS’ environmental management system (EMS),

1
  Audit of PBS’ Environmental Management Program, Report Number A995196/P/H/R00008, February 16,
2000.
2
  Review of the PBS Environment Program Management, Report Number A050040.
GSA Office of Inspector General
Report Number A050040/P/4/R06004

environmental risk index (ERI), environmental liability reporting, and safeguards for tenant
management of hazardous materials in PBS-controlled space.

To accomplish the objectives of our national review that relate to the findings in this report,
we held discussions with regional environment officials; reviewed a judgmental sample of
ERIs completed during the first iteration (2004) for accuracy, completion, and management
usage; reviewed environmental liability packages for sites listed on the FY 2004 liability
report and regional environmental liability records and assessed the validity and completeness
of the environmental liability report; and met with a regional GSA General Counsel
representative to discuss the environmental liability reporting process.

The national audit was conducted during the period December 2004 through July 2005 in
accordance with generally accepted government auditing standards.

RESULTS      OF   AUDIT

PBS recently developed the Environmental Risk Index (ERI) to facilitate the identification
and management of environmental risk. However, the scope of ERI completion in Region 4
needs to be expanded to include delegated facilities. Also, environmental liability reporting,
another identification and management component, requires additional Region 4 oversight to
ensure the report is accurate and complete.

                  Environmental Liability Reporting Needs More Oversight

The environmental liability report for Region 4 was incomplete and inaccurate. The regional
report excluded at least two liabilities that met the requisite conditions for environmental
liabilities (i.e. an actual and/or threatened release of chemicals or hazardous materials to the
environment that requires a future GSA response). For example, one building that has an
emergency generator with built-in 200-gallon diesel above ground storage tank and an
observed leak around the piping and tank is listed on regional documents as an environmental
liability, but is not listed on the GSA environmental liability report. Regional representatives
could not explain why these liabilities were excluded from the report. In addition, the
regional report included 14 sites where environmental remediation had been completed but
the appropriate documentation to support the region’s actions could not be found. In spite of
the future action required by GSA (i.e. obtaining the appropriate documentation), these sites
are not significant liabilities to GSA and should not be listed on the report as “probable”
liabilities. In addition, all of the inaccuracies found in the regional report had been included
in the GSA environmental liability report since 2001 with the same initial cost estimates.

The environmental liability report is tied directly to GSA’s financial statements and
inaccuracies in the report reduce the creditability of the agency’s internal control structure.
PBS’ Environment Program management in Region 4 should review the environmental
liability report periodically (quarterly or annually) to uncover environmental issues that are
not being managed and develop action plans to ensure liabilities are being addressed.



                                               2
GSA Office of Inspector General
Report Number A050040/P/4/R06004

                             ERI Universe Needs to Be Expanded

The Environmental Risk Index (ERI) was developed to measure environmental, health, and
safety risks in 13 areas (hazardous waste, asbestos, indoor air quality, hazardous materials,
subsurface contamination, lead, PCB, storage tanks, Clean Air Act compliance, drinking
water, wastewater, radon, and stormwater) for all government-owned buildings. The current
scope of the ERI initiative only includes government-owned assets.

The Southeast Sunbelt Region was the only region we visited that did not complete an ERI for
delegated buildings. National Office management indicated that at no time have delegated
buildings been excluded from the scope of ERI iterations. Since PBS still has responsibility
for delegated facilities, PBS Region 4 needs to expand the scope of the ERI iterations to
include these properties.

CONCLUSION

Region 4 needs to review the environmental liability report periodically to uncover issues that
are not being managed and develop action plans to ensure liabilities are being addressed to
ensure GSA financial statements are presented fairly. The scope of completion for the PBS
Environmental Risk Index (ERI) tool needs to be expanded to include delegated facilities to
better assist the agency with the identification and management of environmental risk in PBS
properties.

RECOMMENDATIONS

We recommend that the Assistant Regional Administrator of the Public Buildings Service
address the following issues:

(1)   Strengthen environmental liability reporting by ensuring Region 4 environment officials
      update the environmental liability report to reflect current and probable and/or
      reasonably possible environmental risks and develop action plans for each listed
      environmental liability.

(2)   Ensure that all Region 4 environment officials include delegated buildings in the scope
      of ERI completion.

MANAGEMENT COMMENTS

The Regional Administrator of the Southeast Sunbelt Region has provided comments to this
report, which have been included in its entirety as Appendix A. The Regional Administrator
fully agreed with the report’s conclusions and recommendations, while also noting current
and planned efforts that should address our audit findings and recommendations.




                                              3
GSA Office of Inspector General
Report Number A050040/P/4/R06004

INTERNAL CONTROLS

We evaluated the internal controls in effect over environmental liability reporting that were
appropriate to meet the objectives of this audit. As previously discussed, discrepancies were
noted and recommendations provided.           We have concluded that implementing the
recommendations in this report will improve the overall internal control structure in these
areas.


Thank you for the courtesies extended to the audit team during our review. If you have any
questions or wish to discuss this matter further, please contact me at (404) 332 – 3338.




                                             4
GSA Office of Inspector General
Report Number A050040/P/4/R06004

                                      Appendix A

                           Management Response to Draft Report




                                           A-1
GSA Office of Inspector General
Report Number A050040/P/4/R06004




                                   A-2
GSA Office of Inspector General
Report Number A050040/P/4/R06004




                                   A-3
GSA Office of Inspector General
Report Number A050040/P/4/R06004




                                   A-4
GSA Office of Inspector General
Report Number A050040/P/4/R06004

                                       Appendix B

                                    Report Distribution


                                                                       Copies
Commissioner, Public Buildings Service (P)                               1
Office of the Chief Financial Officer (B)                                1
Regional Administrator, Southeast Sunbelt Region (4A)                    3
Assistant Regional Administrator, PBS, Southeast Sunbelt Region (4P)     1
Assistant Inspector General for Auditing (JA, JAO, and JAS)              3
Assistant Inspector General for Investigations (JI)                      1
Regional Inspector General for Auditing, Real Property (JA-R)            1
Regional Inspector General for Auditing, Finance (JA-F)                  1
Branch Chief, Audit Follow-up and Evaluation Branch (BECA)               1




                                            B-1
